                               MEMORANDUM                                            1



-   ....    -
           .. . . . . . . .... ... -   - ~ f t ~ - - ~ ~ ~ ~ . 5 - - 1- - -. 9 9 6 -
                                                                          -   .- .       ~~
                                                                                                 ...~~    .- . -   -- .   . .. . -.
                                                                                                                                  .   ... . ... ..~   ~   .
                                                             9




                                       FROM-                        SAC, Investigation Section

                               SUBTECT: Case Closeout

                                         TO: Case*No. I95100042


                               On October 10, 1995, we received allegations that an unknown NSF employee had used the NSF
                               mailroom to mail chain letters and religous mailings. Initial investigation failed to identify any
                               suspects. Upon our advise, on October 19, 1995, D M sent the attached E-mail to caution NSF
                               staff that use of the NSF mail delivery system is to be confined to official business.

                               Since the E-mail notice, we have not received any additional allegations of unathorized use of the
                               NSF mail. This case is hereby closed.
